Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 9, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Joe Michael Luna v. Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division, No. 21-5460
Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent Bobby Lumpkin,
Director, Texas Department of Criminal Justice, Correctional Institutions Division,
respectfully moves for an extension of the time for ﬁling his response to the petition
for a writ of certiorari in this matter.
This is a capital case. The response is currently due on September 23, 2021.
Respondent requests a 30-day extension, creating a new ﬁling date of October 25,
2021.* My ofﬁce conferred with counsel for Petitioner on September 9, and
Petitioner does not oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng obligations, including:

* Thirty days from September 23 is October 23, which is a Saturday. Thus, the operative deadline would be October 25.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
September 9, 2021
Page 2
• Wardrip v. Lumpkin, No. 21-5226 in the Supreme Court of the United States
(brief in opposition due September 27);
• Texas Department of Public Safety v. K.T., Nos. 20-0977 & 21-0075 in the
Supreme Court of Texas (reply brief due September 22);
• Texas v. Haaland, et al., No. 21-378 in the Supreme Court of the United States
(petition for a writ of certiorari ﬁled September 3);
• Texas, et al. v. Rettig, et al., to be docketed in the Supreme Court of the United
States (petition for a writ of certiorari ﬁled September 3);
• Whole Woman’s Health, et al., v. Jackson, et al., No. 21A24 in the Supreme
Court of the United States (response to application ﬁled August 31);
• In re Abbott, No. 21-0720 in the Supreme Court of Texas (reply in support of
emergency motion for temporary relief ﬁled August 25);
• In re Abbott, No. 08-21-00140-CV in the Texas Court of Appeals for the Eighth
Judicial District (reply in support of emergency motion for temporary relief
ﬁled August 25); and
• Biden, et al., v. Texas, et al., No. 21A21 in the Supreme Court of the United
States (response to application ﬁled August 24).
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for ﬁling a response to the petition for a writ of certiorari, creating a new
deadline of October 25, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record

cc:

Stuart Brian Lev (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

